        EVALUATION OF THE
      DEPARTMENT OF LABOR’S
  PRESIDENTIAL MANAGEMENT INTERN
             PROGRAM




 OFFICE OF THE ASSISTANT SECRETARY
FOR ADMINISTRATION AND MANAGEMENT




                      REPORT No.: 2E-07-753-0002
                  DATE ISSUED: September 26, 2002
                                            TABLE OF CONTENTS



ACRONYMS.............................................................................................................................ii


EXECUTIVE SUMMARY ..................................................................................................... iii


BACKGROUND .......................................................................................................................1


PURPOSE, SCOPE AND METHODOLOGY.........................................................................3


FINDINGS.................................................................................................................................5

          Finding A - OASAM Can Improve Coordination and Guidance Within the PMI
                      Program ......................................................................................................5

          Finding B - OASAM Can Ensure that All DOL Agencies Focus on Key
                      Components Within the PMI Program.........................................................8

          Finding C - OASAM Can Work with Individual DOL Agencies to Improve
                      Tracking of PMI Activities........................................................................11


RECOMMENDATIONS ........................................................................................................13


OASAM’S RESPONSE AND OIG CONCLUSION..............................................................14


APPENDIX – Agency’s Response ..........................................................................................16




                                                               i
                              ACRONYMS


BLS     Bureau of Labor Statistics

CFR     Code of Federal Regulations

DOL     Department of Labor

ESA     Employment Standards Administration

ETA     Employment and Training Administration

GS      General Schedule

IDP     Individual Development Plan

ILAB    Bureau of International Labor Affairs

MSPB    U.S. Merit Systems Protection Board

OASAM   Office of the Assistant Secretary for Administration and Management

OCIA    Office of Congressional and Intergovernmental Affairs

OIG     Office of Inspector General

OPM     Office of Personnel Management

OSHA    Occupational Safety and Health Administration

PMI     Presidential Management Intern




                                      ii
                              EXECUTIVE SUMMARY

The Presidential Management Intern (PMI) program is designed to attract to the federal
service outstanding graduates with Master’s and Doctorate degrees from a wide variety of
academic disciplines. These individuals have an interest in, and commitment to, a career
in the analysis and management of public policies and programs. The program consists
of a two-year internship that enables graduate degree students to be appointed to federal
positions as PMIs, and to have the opportunity to be converted to a permanent federal
civil service position following a successful internship.

Within the Department of Labor (DOL), the Office of the Assistant Secretary for
Administration and Management (OASAM) has the responsibility to promote, administer
and oversee the PMI program. DOL agencies have responsibility for selecting, hiring,
promoting, training, providing rotational assignments and developing their PMIs. The
Department has supported the use of the PMI program as a hiring tool for several years.
It “reinvigorated” the PMI program in 1997 following several years of limited
participation by DOL agencies. DOL, through OASAM, hosted the annual PMI Job Fair
in 1997, 1998 and 1999.

The Federal government is currently facing the great challenge of preparing for the
exodus of many senior level employees. OASAM conducted a study that revealed that
fifty-one percent of DOL’s supervisors and managers are eligible to retire over the next
five years. Therefore, it is important that DOL maximize the Department’s ability to
recruit talented people to Federal service. Utilizing the PMI program is one means to
address the issue of succession management.

This evaluation examines DOL’s participation in the PMI program, evaluates its
outcomes, and identifies areas where improvements can be made.

 FINDINGS AND RECOMMENDATIONS

DOL has utilized the PMI Program as a hiring and development tool for several years.
However, additional enhancements within the program can be implemented.

FINDING A - DOL Can Improve Coordination and Guidance Within the PMI
            Program

OASAM can do more to ensure that DOL-PMIs, PMI agency coordinators, and managers
receive adequate guidance and education on the regulations, duties and responsibilities
involved in employing PMIs. DOL agencies are developing PMIs without the advantage
of a comprehensive Departmental strategy focused on improving program outcomes.
DOL has not clearly articulated its long-term vision for the PMI program. In addition,
the role of DOL’s agency PMI coordinators has not been clearly defined, causing
confusion about their responsibilities and hindering the efficient and effective
administration of the program.


                                            iii
FINDING B - OASAM Can Ensure that All DOL Agencies Focus on Key
            Components Within the PMI Program

All DOL agencies do not consistently focus on and offer key components of the PMI
program such as recruitment, orientation, training, and rotations. Even though PMIs are
completing rotational assignments and participating in some of the other key program
components, OASAM should provide additional guidance to ensure full completion of all
the program requirements.


FINDING C -       OASAM Can Work with Individual DOL Agencies to Improve
                  Tracking of PMI Activities

OASAM has not systematically tracked and disseminated information on PMI-related
activities such as hiring, training, rotations, transfers to other federal agencies,
promotions, conversions or terminations. As a result, OASAM has no way to ensure that
all aspects of the PMI program are implemented consistently throughout the Department.


 RECOMMENDATIONS

We recommend that OASAM work with all DOL agencies to improve the PMI program
within the Department of Labor. In this regard we recommend that OASAM:

   1. Actively market the Presidential Management Intern Program within DOL.

   2. In coordination with DOL agencies, identify the roles and responsibilities of those
      employees associated with or responsible for the PMI program within DOL (i.e.
      PMIs, DOL’s-PMI coordinator, agency PMI coordinators and DOL management
      staff).

   3. Encourage DOL agencies to develop and share a profile of each PMI that includes
      information such as alma mater, degree, and current assignment, subject to the
      Privacy Act.

   4. Develop and hold an annual PMI orientation for all DOL-PMIs. We recommend
      that the orientation focus on DOL’s administration of the program and invite both
      headquarters and field PMIs. In addition, we suggest that the information
      provided to PMIs at the orientation be shared with their supervisors.

   5. Develop and implement a tracking system to monitor PMI information, including:

        (a)   All PMI hiring information for each agency;




                                           iv
       (b)   The amount and types of training received, including attendance at both
             OPM and DOL orientation sessions;

       (c)   Promotion and conversion data;

       (d)   Transfer information; and,

       (e)   Termination information.

       Additionally, OASAM should require that all DOL agencies annually provide
       reports on the following information to the OASAM Human Resources Center:

       (f)   IDP development and completion; and,

       (g)   The type, duration, and frequency of rotational assignments.



 OASAM’S RESPONSE AND OIG CONCLUSION

Based on OASAM’s response, we consider all recommendations resolved. The
recommendations will be closed pending OIG’s receipt of appropriate documentation
specified in the report. OASAM’s complete response is found in the Appendix.




                                            v
                                  BACKGROUND

The Presidential Management Intern (PMI) program is designed to attract to the federal
service outstanding graduates with Master’s and Doctorate degrees from a wide variety of
academic disciplines. These individuals have an interest in, and commitment to, a career
in the analysis and management of public policies and programs. The program was
established on August 25, 1977 by Executive Order 12008, and was reconstituted
May 24, 1982 by Executive Order 12364. It consists of a two-year internship program
that enables graduate degree students to be appointed to federal positions as PMIs, and to
have the opportunity to be converted to a permanent federal civil service position
following a successful internship.

The PMI program places a strong emphasis on career development. During their
internship, PMIs experience a myriad of challenging career opportunities. The Office of
Personnel Management (OPM) facilitates and provides structured orientation and
graduation training programs. Additionally, federal agencies arrange for seminars,
briefings and conferences, as well as on-the-job training and other developmental
opportunities. Federal agencies also provide PMIs with rotational assignments either
within their own, or other federal agencies.

According to OPM guidelines, each agency should have a PMI coordinator, whose
primary role and responsibility is to serve as a liaison and program facilitator for the
agency. Other responsibilities include: recruitment of PMIs for the agency, working with
agency managers to identify PMI positions, distributing copies of the PMI finalists’
applications and scheduling interviews, participating in the annual PMI Job Fair, ensuring
that all hiring components within their agency are aware of the commitments involved in
hiring a PMI, notifying OPM of agency PMI placements as they occur and facilitating
payment to OPM within 30 days of appointment (total cost not including salary
$4,800.00).

PMI program regulations specify that initial appointments must be made at the Grade 9,
Step 1 level of the General Schedule (GS-9). Only individuals who have had prior,
higher-level Federal civilian government service may be placed at a higher step within
the GS-9 pay range according to 5 CFR 531.203(c). PMI positions are full-time positions
that count against agency personnel ceilings and salaries are paid by the employing
agency.

Once the PMI is hired, the coordinator assists supervisors and PMIs during the initial
agency orientation, acts as a resource person for the PMIs and their supervisors on PMI
Program activities and individual concerns, and responds to program-related questions,
helping PMIs and their supervisors identify and clarify responsibilities and commitments.

The coordinator also guides PMIs and their supervisors in the design of Individual
Development Plans (IDP) that identify learning goals and objectives, provides in-house
orientation and training opportunities for the PMIs, and advises supervisors and PMIs on
matters concerning PMI program rules, regulations, and program implementation.

                                            1
Throughout the Federal Government there have been recent attempts to address the
human capital issue that becomes more of a concern as current managers and senior
executives consider retirement. The Office of the Assistant Secretary for Administration
and Management (OASAM) conducted a study that revealed that fifty-one percent of the
Department of Labor’s (DOL’s) supervisors and managers are eligible to retire over the
next five years. Utilizing the PMI program is just one way for DOL to build a pool of
employees who have a high level of critical leadership competencies in order to prepare
for the high number of expected retirements. The Department has supported the use of
the PMI program as a hiring tool for several years. It “reinvigorated” the PMI program in
1997 following several years of limited participation by DOL agencies. DOL, through
OASAM, hosted the annual PMI Job Fair in 1997, 1998 and 1999.




                                           2
                      PURPOSE, SCOPE AND METHODOLOGY

PURPOSE

The purpose of this evaluation was to examine DOL’s participation in the PMI program,
evaluate its outcomes, and identify areas where improvements can be made.

SCOPE

Our evaluation questions were as follows:

   •   Does DOL have a structured program to handle the day-to-day operations of the
       PMI program? How is it handled? Who has overall responsibility for the
       program?

   •   Is there a need for DOL to broaden its participation in and oversight of its
       administration of the PMI program?

These evaluation questions were designed to assist in examining the effectiveness of
guidance, oversight and services provided to stakeholders in DOL’s-PMI program. The
PMI program is one of many hiring tools available to DOL managers to address the issue
of succession planning and should be viewed in that context.


METHODOLOGY

Our methodology included qualitative methods and an extensive review of pertinent
documents.

Qualitative Methods

Our qualitative review focused primarily on interviews with DOL-PMIs. We interviewed
a randomly selected sample of PMIs, who represented a cross-section of DOL agency
PMI hires from 1996-2001. To provide a more balanced assessment we conducted
interviews with DOL’s PMI coordinator, DOL managers and supervisors, and
DOL agency PMI coordinators.

We asked all interviewees in DOL questions concerning the key components of the PMI
as administered by OASAM. Specifically, we asked about: recruitment, hiring processes,
orientation, formation of Individual Development Plans, training, Career Development
Groups, rotations, stakeholder interaction (i.e. OASAM, DOL agency staff, managers,
and PMIs), promotions, and conversion. Further, we interviewed other federal agency
officials at the Department of Housing and Urban Development, Department of Interior,
Department of Agriculture, and the Small Business Administration for best practices.



                                            3
Document Review

We reviewed numerous documents related to the PMI program, including:
      1. A list of all current and former DOL-PMIs (including PMIs from other
         agencies that had rotational assignments into DOL).
      2. A list of current DOL agency PMI coordinators or managers responsible for
         the PMI program.
      3. Rules, Regulations, Policies, and Executive Orders concerning the PMI
         program.
      4. Internal and external DOL documents pertaining to policy, procedures and
         guidelines regarding the PMI program.
      5. Data and information on the rate of PMI turnover.
      6. Reports, reviews and/or studies regarding DOL’s-PMI program.
      7. Reports, reviews and/or studies regarding the PMI program government wide.
      8. OPM and other federal agencies websites.

We conducted our evaluation in accordance with the Quality Standards for Inspections
published by the President’s Council on Integrity and Efficiency.




                                          4
                                          FINDINGS

    FINDING A:         OASAM Can Improve Coordination and Guidance Within the
                       PMI Program

OASAM can do more to ensure that DOL-PMIs, PMI agency coordinators, and managers
receive adequate guidance and education on the regulations, duties and responsibilities
involved in employing PMIs. DOL agencies are developing PMIs without the advantage
of a comprehensive Departmental strategy focused on improving program outcomes.
DOL has not clearly articulated its long-term vision for the PMI program. In addition,
the role of DOL’s agency PMI coordinators has not been clearly defined, causing
confusion about their responsibilities and hindering the efficient and effective
administration of the program.

While it is the responsibility of DOL program agencies to hire, and provide rotations and
training to PMIs, OASAM has a responsibility to remind the agencies of all
responsibilities associated with employing PMIs. According to OPM, “…headquarters
office remains accountable for its components’ actions concerning the PMI program.”1

DOL’s Vision for the PMI Program

Through interviews with DOL’s PMI Coordinators, PMIs, and program agency staff, we
learned that DOL has not publicized its long-range goals and long-term vision for the
PMI program. Interviewees also stated that DOL does not view the PMI program as a
training mechanism for future DOL managers, which is its intent.

DOL is not the only agency that is not clearly defining its vision for the program and
properly developing its PMIs. The U.S. Merit Systems Protection Board (MSPB), in
their 2001 evaluation of the government-wide PMI program administered by OPM,
stated:

        “Although the 1982 executive order that governs the program states it is to
        ‘provide for the recruitment and selection of outstanding employees in
        public sector management,’ many agencies use the program merely as one
        of a number of modes of entry into the Government’s professional and
        administrative ranks rather than as a tool specifically intended to hire
        future managers…neither OPM nor the agencies consistently stress its
        management development aspects.”2




1
  5 CFR Parts 315 and 362, [Supplementary Information: OPM issued interim regulations with a request for
comments on January 2, 1997 (62 FR 3193)].
2
  U.S. Merit Systems Protection Board, “Growing Leaders: The Presidential Management Intern
Program,” Washington, D.C., August 2001, p. ix.

                                                   5
Hiring agencies within DOL have not adopted a common view on the purpose of the PMI
program. As a result, the PMI program is not administered consistently among program
agencies, and may vary widely.

OASAM’s Guidance and Oversight of the PMI Program

OASAM has a PMI program office that has the responsibility to promote, administer and
oversee the operation of the PMI program within DOL. However, we learned through
interviews that PMIs receive the majority of their guidance on programmatic issues from
their immediate supervisors, which results in PMIs receiving disparate information
regarding program and administrative issues.

Interviewees also stated that OASAM does not conduct an orientation session for PMIs,
or track the training and rotation of individual PMIs. They have not issued performance
measures or standards for the PMI program. Further, there is no system in place to assess
the performance of the PMI program on a recurrent basis. Presently, agency officials
have no way to determine whether the program is effectively fulfilling the goals of the
PMI program.

Agency Coordinator Responsibilities

We found through interviews that the PMI coordinator in DOL has not developed
adequate working relationships with PMIs and agency management. The DOL-PMI
coordinator agrees that interaction needs to be improved, but stated that more authority
needs to be given to the position in order to effect change. For example, the coordinator
does not have the authority to require that agencies provide PMIs with the training and
rotational opportunities required by law.

The majority of PMIs that we interviewed who had interaction with the PMI office said
the assistance they received was inadequate, as evidenced in Figure 1. below. We
interviewed a total of 21 PMIs from a universe of 49.


                      PMIs Interaction with Program Coordinator


                                                     Did Not Know
                                       Good        Coordinator Existed
                                        5%                14%
                     Inadequate
                        38%


                                                        No contact
                                                          43%

                                                                         Figure 1.




                                              6
OASAM has not encouraged DOL agencies to share information on PMI profiles.
Profiles of PMIs could be used to enhance and facilitate networking opportunities and
general camaraderie among PMIs. Subject to the Privacy Act, agencies could also use
profiles to select PMIs for rotational assignments and to get a snapshot of the caliber of
employees that enter DOL through the program.

The Role of Individual DOL Agency PMI Coordinators

In addition to the Departmental coordinator, there are 12 agency PMI coordinators in
DOL who act as liaisons and program facilitators. Through our interviews we learned
that many of these individuals are not sufficiently trained to address and resolve the
varied questions and issues that frequently arise regarding the PMI program.

The role of DOL’s agency PMI coordinators has not been clearly defined, causing
confusion about their responsibilities and hindering the efficient and effective
administration of the program. According to many agency coordinators we interviewed,
they do not have a clear understanding of the primary purpose of the PMI program.
Coordinators see their role as a very limited administrative function.

According to the coordinators, they need more detailed information from OASAM
concerning the rules and regulations relative to the recruitment, hiring, employment, and
promotion of PMIs. As a positive first step OASAM has provided a general description
of the PMI program as well as other hiring authorities in a guide for managers.3
However, the guide does not adequately explain the structure and requirements of the
PMI program.




                                   [Intentionally Left Blank]




3
 U.S. Department of Labor, OASAM, Human Resources Center, “Recruiting, Hiring, and Retaining a
Diverse Workforce: A Managers Guide to Staffing Tools and Pay Flexibilities,” Washington, D.C.,
October 2001, p. 4.

                                                 7
 FINDING B:       OASAM Can Ensure that All DOL Agencies Focus on Key
                  Components Within the PMI Program

All DOL agencies do not consistently focus on and offer key components of the PMI
program such as recruitment, orientation, training, and rotations. Even though PMIs are
completing rotational assignments and participating in some of the other key program
components, OASAM is not providing adequate guidance to ensure full completion of all
the program requirements.

Recruitment of PMIs

According to our interviews with agency PMI coordinators, DOL agencies are not always
aware of the regulations and commitments involved with hiring a PMI before they begin
recruitment. Interviewees said that OASAM could improve recruitment by educating
managers and applying innovative approaches to promoting the PMI program and its
benefits to hiring officials.

For example, many DOL agency representatives are not prepared to make onsite
employment offers to the PMI candidates of their choice at annual PMI job fairs. All
PMI finalists are invited to attend an annual PMI Job Fair. The fair is attended by any
federal agency interested in hiring a PMI. Because the PMIs are already screened and
assessed, agency representatives can make job offers directly to PMI candidates at the job
fair. Our review of other federal agencies’ PMI hiring practices revealed that some
conduct interviews before, during, and after the job fair in an effort to interview as many
candidates as possible that have the educational background and overall skill set the
agency needs. According to some PMIs and DOL agency coordinators we interviewed,
many agencies lose out on qualified candidates because they wait too long to make a job
offer.

DOL Agency-Wide PMI Orientation

Although DOL has not held an agency-wide PMI orientation since 1998, OASAM agreed
to begin DOL-PMI orientation sessions in 2003. According to OPM, federal agencies are
responsible for conducting an orientation on agency mission and structure as early as
possible for all newly hired PMIs.

Many other federal agencies plan separate agency orientation sessions that coincide with
the OPM sponsored PMI orientation. For example, the Department of State starts their
PMIs on the same enter-on-duty date, and as a class, all attend a one-week orientation
session before reporting to their assigned bureau.

DOL agencies are not always communicating with their PMIs early in their internships.
Of the 21 PMIs we interviewed, 16 stated that their agency did not do an adequate job of
explaining the rules, regulations, expectations, and responsibilities of all parties that may
be involved with their development.



                                              8
PMIs, like all DOL hires, receive a general DOL employee orientation from their hiring
agency’s personnel office. According to PMIs and agency officials, information on the
PMI program is normally provided. However, we found the information and guidance is
informal, infrequent, and inconsistent. DOL agencies conduct general orientations at
timeframes and levels of specificity that vary widely between individual PMIs.

The Amounts and Types of Training Opportunities for PMIs

Training has always been considered a fundamental part of the PMI program. DOL
agencies are not consistently providing adequate training to develop PMIs into future
program leaders. As a participant in the PMI program, DOL is obligated to ensure that
PMIs meet the 80-hour per year training requirement mandated by OPM. Of the PMIs
we interviewed, 52 percent received at least 80-hours of training. Additionally, we found
that there is not an adequate system in place to track and monitor whether PMIs are being
afforded the requisite amount of training.

The OPM Orientation Training Program for PMIs counts toward meeting 24 of the 80
hours of required training during the PMI=s first year. OPM provides a Graduation
Training Session and Ceremony, which counts toward meeting 16 hours of the 80-hour
training requirement during the second year of the PMI internship.

Aside from the PMIs themselves or possibly their supervisors, there is no effective means
to ensure that a PMI is completing the requisite minimum of 80-hours of training per
year.

   •   Management Development Opportunities for PMIs

       We found that all DOL agencies do not stress management development of PMIs.
       Twenty of the 21 PMIs we interviewed did not believe the PMI program was
       viewed as a management development program by DOL. While PMIs did receive
       limited management development training, it was infrequent and informal.
       According to the PMI coordinator and agency coordinators we interviewed, the
       management development component of the PMI program could be enhanced and
       tracked by OASAM.

       Many agency coordinators we interviewed stated that they view the PMI program
       as a way to hire quality graduate students without the difficulty and delay
       associated with standard hiring mechanisms.

   •   Development of IDPs for PMIs

       DOL agencies have not consistently developed IDPs for PMIs that are realistic,
       well researched, and clearly written. According to OPM, the IDP is a device that
       the PMI and supervisor should use to clarify expectations for training, rotations,
       other developmental activities, and responsibilities. Of the 10 PMIs we
       interviewed who had less than 80-hours of training, only 5 had IDPs in place, and
       none of the IDPs were being followed. Conversely, of the 11 PMIs we

                                            9
          interviewed who had 80 or more hours of training provided, 8 had IDPs in place
          that were followed closely.

PMI Rotations in DOL

Overall, PMIs within DOL are completing rotational assignments. Seventeen of 21 PMIs
we interviewed stated they were able to complete a rotation. However, when asked about
the process, 12 thought it needed to be improved. For example, several PMIs stated that
the approval process was ambiguous and thus caused confusion about who in their office
had final authority to grant or deny the rotation.

It is required that a PMI’s “home agency” (agency that employs and provides the salary
for a PMI) provide at least one rotational assignment to another functional area during an
internship. The rotation can be to another bureau, division, office, program, DOL agency
or branch of the Federal Government. Rotations are arranged either by the PMI or the
agency. Ultimately rotations are selected at the discretion of the home agency. However,
agencies must provide at least one rotation during the internship.

Although the home agency can release a PMI for rotation at their discretion, the purpose
of the rotation component is for career development of the PMI. Thus, it is important that
PMIs and managers have open lines of communication concerning the types, timing, and
duration of rotational assignments throughout a PMI’s tenure.

The Process for Promoting and Converting PMIs

All DOL agencies do not provide training and guidance to PMIs, PMI managers, and
agency officials on the process for promoting and converting PMIs. DOL-PMIs
experienced delays in being promoted from the GS-9 to GS-11 level. Promotion to the
GS-11 level may occur after satisfactory completion of one year of continuous service at
the GS-9 level.4 However, except for conduct or performance based issues, agencies
should not delay a PMI’s promotion. Of 21 PMIs we interviewed, 19 were eligible for
promotion from the GS-9 to GS-11 within the timeframe of our evaluation. Of the
nineteen, 11 (57%) experienced delays.

PMIs are given information on promotions and conversions at the OPM sponsored
orientation. However, DOL-PMIs are not always given clear guidance from program
agencies on the promotion process and the prospects for conversion at the end of the
two-year internship. If an agency does not intend to convert a PMI, the agency should
notify the PMI and the PMI Program Office at least 90 calendar days before completion
of the internship.5 Fifty-seven percent of the 21 PMIs we interviewed (or 12 out of 20
that had a response) did not think that the process for promotions was explained
adequately.




4
    5CFR 362.202(d)
5
    5CFR 362.204

                                             10
 FINDING C:         OASAM Can Work with Individual DOL Agencies to
                    Improve Tracking of PMI Activities

OASAM has not systematically tracked and disseminated information on PMI-related
activities such as hiring, training, rotations, transfers to other federal agencies,
promotions, conversions or terminations. As a result, OASAM has no way to ensure that
all aspects of the PMI program are implemented consistently throughout the Department.

PMI Hires in DOL

OASAM informed us that, “[t]he number of PMI hires is monitored through the ‘Use of
Hiring Flexibilities’ report that is provided to Agency Heads each quarter.” Through data
review we learned that DOL hired an average of 18 PMIs per year between 1997 and
2000, with a peak of 22 hired in 1998. One PMI was hired in 1996, while four were hired
in 2001. From 1996 to 2001, DOL accounted for approximately 2.6 percent of PMI
finalists hired from a government wide pool of 3,000 (five hundred finalist per year over
a six year period). The following chart depicts the total number (78) of PMIs hired by
DOL from 1996 to 2001.

                                 PMI Hires from 1996-2001

            25

            20

            15
     PMIs
            10

            5

            0
                 1996    1997      1998          1999   2000   2001
                                          Year
                                                                       Figure 2.

Because there are countless reasons for the shifts in the number of PMIs hired from
year-to-year, it is difficult to draw definitive conclusions about these shifts. Also, PMIs
separate from agencies for various reasons that may have little to do with the work
environment or retention efforts. Federal agencies are not required to hire or retain a
certain number of PMIs during a calendar year. Even with aggressive recruitment and
retention efforts, as well as ample opportunities for career development, an agency is not
guaranteed PMI hires.




                                                 11
PMI Attrition in DOL

Similarly, we could find no evidence that OASAM conducted periodic analysis of PMI
attrition. However, our analysis revealed that DOL’s-PMI attrition rate is comparable to
the government-wide PMI turnover numbers. Unfortunately, OASAM does not share
attrition information with agency hiring officials. DOL program agency officials stated
that agency managers are sometimes apprehensive about hiring PMIs because they have
the perception that PMIs may leave the agency at significantly higher rates than
non-PMIs. From 1996 to 2001 DOL hired 78 PMIs; during that period 29 PMIs
separated from the agency. The average separation rate for DOL-PMIs was
approximately 7.5 percent per year. PMIs government-wide separated at an average rate
of 7 percent per year during the first five years of employment. Non-PMIs depart at a
rate of 5 percent per year for the first three years, and 8 percent for the fourth and fifth
year of employment.

Figure 3 below depicts the 78 PMI hires and 29 PMI separations from DOL from
1996-2001.

                              DOL Agency PMI Total
                             Seventy- Eight Total PMIs

                    DOL Agency # PMIs Percentage of Separations
                                       DOL-PMIs
                   BLS            6        8%            0
                   ESA           13       17%            6
                   ETA           13       17%            5
                   ILAB          19       24%            5
                   OASAM         12       15%            6
                   OCIA           3        4%            2
                   OIG            3        4%            1
                   OSHA           7        9%            3
                   Others         2        2%            1
                   Total         78      100%           29

                                                                     Figure 3.




                                             12
 RECOMMENDATIONS

We recommend that OASAM work with all DOL agencies to improve the PMI program
within the Department of Labor. In this regard we recommend that OASAM:

   1. Actively market the Presidential Management Intern Program within DOL.

   2. In coordination with DOL agencies, identify the roles and responsibilities of those
      employees associated with or responsible for the PMI program within DOL (i.e.
      PMIs, DOL’s-PMI coordinator, agency PMI coordinators and DOL management
      staff).

   3. Encourage DOL agencies to develop and share a profile of each PMI that includes
      information such as alma mater, degree, and current assignment, subject to the
      Privacy Act.

   4. Develop and hold an annual PMI orientation for all DOL-PMIs. We recommend
      that the orientation focus on DOL’s administration of the program and invite both
      headquarters and field PMIs. In addition, we suggest that the information
      provided to PMIs at the orientation be shared with their supervisors.

   5. Develop and implement a tracking system to monitor PMI information, including:

      (a)     All PMI hiring information for each agency;

      (b)     The amount and types of training received, including attendance at both
              OPM and DOL orientation sessions;

      (c)     Promotion and conversion data;

      (d)     Transfer information; and,

      (e)     Termination information.

      Additionally, OASAM should require that all DOL agencies annually provide
      reports on the following information to the OASAM Human Resources Center:

      (f)     IDP development and completion; and,

      (g)     The type, duration, and frequency of rotational assignments.




                                           13
                    OASAM’S RESPONSE AND OIG CONCLUSION


OASAM’s Response

“The draft report has two underlying flaws that should be addressed to better serve its
purpose and accurately inform the reader:”

   •   “The report needs to put the PMI Program in perspective --it is just one hiring
       tool available to managers for succession planning. Managers have many ways
       to fill positions, as outlined in the attached ‘Recruiting, Hiring, and Retaining a
       Diverse Workforce: A Manager’s Guide to Staffing Tools and Pay Flexibilities.’
       With this in mind, the report should make clear that the resources devoted to the
       administration of the PMI Program must be viewed within the overall context of
       the available recruitment program.”

OIG Conclusion

Throughout the report we have stated that the PMI program is but one tool to fill
agencies’ hiring needs. We agree with OASAM that the PMI program should be viewed
in that context. However, OASAM must ensure that agencies that hire and employ PMIs
comply with the rules and regulations governing the program.

OASAM’s Response

   •   “The report is based ‘primarily on interviews with PMIs’, with no indication that
       supervisors or Agency officials validated the information gathered from these
       interviews. As discussed with the evaluation staff, issues raised by PMIs need to
       be validated by discussions with appropriate managers and supervisors to present
       a more balanced assessment. While the report notes that ‘DOL managers and
       supervisors’ were interviewed, it does not identify the number of managers
       interviewed or indicate that a structured approach to interviews was utilized.”

OIG Conclusion

PMIs we interviewed spoke about their own experiences and opinions concerning DOL’s
administration of the program. We do not agree that managers should have validated the
responses PMIs provided nor did we ask them to. It is our opinion that we ascertained a
balanced assessment by interviewing DOL’s-PMI coordinator and all available agency
coordinators (who disseminate information about the program to managers and serve as
liaisons between PMIs, managers, and OASAM on programmatic issues). In our opinion,
those individuals represented the management perspective.

We focused our findings and recommendations on issues and areas where OASAM can
work with DOL agencies to improve its administration of the PMI program.


                                            14
OASAM’s Response

“In response to the draft recommendations, OASAM is prepared to:

   •   Clarify roles and responsibilities and enhance marketing the PMI Program by
       preparing a summary of program highlights, publicizing the program in the
       Management Forum Newsletter, developing a PMI guide outlining roles and
       responsibilities, and providing training to agency coordinators.

   •   Enhance networking opportunities by conducting an annual PMI orientation
       session and developing a PMI directory.

   •   Enhance the tracking of PMIs by developing a reporting template using the BRIO
       analytical reporting tool. This template will track training, promotion, and
       separation information. OASAM will also collect information on rotations and
       development of training plans from Agency PMI coordinators.”

OASAM also suggested four points of clarification, which are incorporated in the report,
as appropriate.

OIG’s Conclusion

We consider the recommendations resolved and will be closed upon receipt of the
following information. Please provide the information no later than February 7, 2003.

   •   A copy of the action plan detailing how DOL will market the PMI program within
       DOL, in addition to publicizing the program in the Management Forum
       Newsletter.

   •   A copy of the PMI guide outlining the roles and responsibilities of program
       stakeholders, and providing training to agency coordinators.

   •   A copy of the action plan for developing a PMI directory.

   •   A copy of the action plan for developing and holding annual PMI orientations for
       all DOL-PMIs.

   •   A copy of the action plan detailing how DOL will implement a tracking system to
       monitor PMI related information detailed in recommendation five.




                                           15
   APPENDIX
Agency’s Response




    16
